No.
IN THE

SUPREME COURT OF THE UNITED STATES

ARTHUR O. ARMSTRONG,
PETITIONER

VS.

CITY OF PHILADELPHIA and
SCHOOL DISTRICT OF PHILADELPHIA,

RESPONDENTS.

ON PETITION FOR A WRIT OF CERIORARI TO

IHE UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Arthur O. Armstrong, Pro se
8113 Pleasant Hill Road
Elm City, NORTH CAROLINA 27822
252-236-7912

received
APR 15 2020

1

RECE1VESD
APR 2 3 2020
#FFICE OF THE OLERK
SUPREME COURT, U.S.

i
QUESTIONS PRESENTED
Whether School District of Philadelphia discharged the petitioner from his teaching position
without due process of law when respondent denied the petitioner a hearing in violation of the
Fourteenth Amendment to the Constitution of the United States.
Whether respondent School District of Philadelphia acted with active connivance in the making
of the state law violation false reports and other conduct amounting to official discrimination
dearly sufficient to constitute denial of riights protected by the Equal Protection Clause to
deprive the petitioner of his teaching position without due process of law in violation of the
Fourteenth Amendment to the Constitution of the United States.
Whether the United States Court of Appeals for the Third Circuit acted with active connivance in
the making of the unauthorized appeal false reports and other conduct amounting to official
discrimination clearly sufficient to constitute denial of rights proteced by the Equal Protection
Clause to dismiss petitioner's motion for relief, pursuant to Rule 27(a)(2) of the Federal Rules of
Appellate Procedure without due process of law in violation of the Fourteenth Amendment to
the Constitution of the United States.
Whether the United States Court of Appeals for the Third Circuit abridge petitioner's
fundamantai rights to access the court when respondent restricted petitioner to one (1) filing
per year for relief in violation of the federal constitution and laws of the United States from a
constitutional violation without due process of law in violation of the Fourteenth Amendment
to the Constitution of the United States.
Whether respondent United States Court of Appeals for the Third Circuit denied the petitioner
total access in the court in direct explicit to the Constitution of the United States.
Whether respondent United States Court of Appeal for the Third Circuit's surcharge of $100.00
satisfy due process of law.
Whether respondent United States Court of Appeals for the Third Circuit acted with reckless
indifference and wanton disregards for the truth of falsity and the rights of petitioner and other
when respondent acted with active connivance in the making of the required district court
certification false reports and other conduct amounting to official discrrimination clearly
sufficient to constitute denial of rights protected by the Equal Protection Clause to dismiss/deny
petitioner's civil rights lawsuit without due process oflaw in violation of the Fourteenth
Amendment to the Constitution of the United States.

ii
PROCEEDINGS AND RELATED CASES
Ail the parties appear in the caption of the case are on the cover page.
RELATED CASES
Armstrong vs. School District of Philadelphia, No 2:99-cv-00825. In The United States
District Court for the Eastern District of Pennsylvania, Judgment entered December 23,
2019.
Armstrong vs. School District of Philadelphia, No. 20-1199. United States Court of
Appeals For the Third Circuit. Judgment entered March 30, 2020
There is no parent or publicly held company owing 10% or more
TABLE OF CONTENT
Questions

presented

Disclosure
Table

statement

ii

content

ii.

of

Authorities

i

cited

iii

Opinion below...................

1

Jurisdiction

1

Constitutional

and

Statement

of

Reason

for

statutory
the

provision

involved

case...
granting

1
2

the

petition

Conclusion

6
7

INDEX TO APPENDIX
APPENDIX A; On March 30, 2020, the United States Court of Appeals for the Third Cicuit
denied petitioner's motion for relief, pursuant to Rule 27(a)(2) of the Federal Rules of
Appellate Procedure without due Process of law in violation of the Fourteenth
Amendment to the Constitution of the United States.
APPENDIX B: On December 23, 2018, trial court denied petitioner's motion for eelief,
pursuant to Rule 60 (b)(6) of the Federal Rules of Civil Procedure without due process of
law in violation of the Fourteenth Amendment to the Constitution of the United States.
APPENDIX C; The constitutional and statutory provision involved in the case set out

'?**
hi

verbatim with appropriate citation.
TABLE OF AUTHORITIES CITED
CASE

Page Number

Armstrong v. School District, 2:99-cv-825
42U.S.C.S1983

2,3

Rule 60(b)(6)

5

Armstrong v School District, 20-1199
Rule 4
Rule 27(a)(2)
Article 8-Vlil

7

i, iii,7,8
6

%

X

OPINION BELOW
For cases from federal courts, the opinion ot the United States Court of Appeals for
the Third Circuit appears at Appendix A to the petition and is unpublisheed
The opinion of the United States District Court appears at Appendix B to the petition
and is unpublished.
JURISDICTION
From cases from the federal courts. The date on which the United States Court of
Appeals decided my case was March 30, 2020.
CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED
Constitutional Provisions
Fourteenth Amendment
Statutory Provision
28 U.S.CS.1254{1)
28 U.S.CS. 2191

2
42

28 U.S.C.S. 1746
U.S.C.5.1983
42 U.S.C.S. 1985
42 U.S.C.S. 1986
42 U.S.C.S. 1985(3)
Set out verbatim the constitutional and statutory provision involved in rhis case at
Appendix C.
STATEMENT OF THE CASE
Petitioner resides in the City of Elm City, North Carolina 27822. On August 25,1992,
respondent School District of Philadelphia acted with racial profiling (Fourteenth
Amendment violation) Made some falsities (Fourteenth Amendments violation).
Discharged the petitioner from his teaching position without a hearing (Fourteenth

Amendment violation). Denied petitioner Article VIII of the greicvance procedure of
the
collective bargaining agreement (Fourteenth Amendment violation). Respondent City
of
Philadelphia is duly organized, existing and operating under the federal constitution
and laws of the United States and is liable for a damages judgment enter against
respondent School District of Philadelphia in its official capacity as a result of an action
brought against it by petitioner under 42 U.S.C.S. 1983 Civil Rights Act, who had been
violated by respondents for the transgression of the Fourteenth Amendment to the
Constitution of the United States. On August 25,1992, respondent School District of
Philadelphia failed to conform to the requirements of the federal constitution and laws
of the United States when respondent School District acted with including but not
limited to : arbitrariness, capriciousnes, malice fraud, RICO, rackeering, pattern of
rackeering activity, trickery, falsity, deceit, misrepresentation, defamation and

3.
conspiracy when respondent without probable cause or just cause, acted with active
connivance in the making of the State Law violation false reports and other conduct
amounting to official discrimination clearly sufficient to constitute denial of rights
protected by the Equal Protection Clause to deprive the petitioner of property without
due process of law when respondent discharged the petitioner from his teaching
position without a hearing in violation of the Fourteenth Amendment to the
Constitution
of the United States. On or about June, 1994, petitioner filed a civil rights lawsuit
against respondent School District of Philadelphia, alleging constitutional violation.
Respondent moved the court with motion for dismissal and/or motion for summary
judgent on grounds that petitioner failed to state a claim upon with relief can be
granted. That petitioner was so inept in his litigation, listerned to his hired adversarial
counsel for direction and withdrew his state and federal cases for a hearing without
prejudice for reinstatement to his teaching position in accordance to the collective
bargaining agreement between the School Board and the Federal of Teachers. As a
direct and proximate result of respondent's action, petitioner suffered continuing
injuries, including but not limited to: mantal distress, psychic injuries, humiliation,
injury to his reputation and mental anguish. I pray for judgment in the sum of

$125,000,000.00.
WHEREFORE, Petitioner prays for judgment as follows:
Compensatory and punitive damages under 42 U.S.C.S 1983, Civil Rights Act in the sum
of $125,000,000.00.
Intangible harm

Attorney's fees under 42 U.S.C.S. Attorney's Awards Act; or as a component of punitive
damages.
Costs and Expenses of this action and such other and further relief as the court deems
just and proper.
Respectfully submitted this the 3rd day of April. 2020.
March 3, 2020.
Respectfully Submitted,
Arthur O. Armstrong, Petitioner
VERIFICATION
I, Arthur O. Armstrong, being first duly sworn, deposes and says that he is the
Petitioner named in the foregoing matter and that the allegations set forth in the
Petition are true and correct to the best of his knowledge and belief except for those
allegations set forth on information and befief and as to those allegations he believes
them to be true.
April 3, 2020
Arthur O. Armstrong, Petitioner
8113 Pleasant Hill Road.

Elm

City, NC 27822

AFFIDAVIT OF ARTHUR O. ARMSTRONG
I swear under penalty of perjury under United State law that the within and foregoing
statements set forth in the verification are true and correct (28 U.S.C.S. 1746.)
March 3, 2020

Arthur O. Armstrong, Petitioner

And on or about May, 1995, trial court denied petitioner's motion to reopen action. On
or
about May 31,1995, petitioner filed notice of appeal but failed to perfect his appeal.

.5
Appeal was denied. Petitioner knew he had been violated by repondent School District
of
Philadelphia and thought that he could file and continue to file Actions including, but

not
limited to: 2:95-cv-5740

2:97-cv-68......and

until such time as the court simply

had enough and brought an hault to petitioner's frivolous filing at 2:99-cv-00825. On
December 2, 2019 petitioner filed a 60(b)(6) motion for relief. On December 23, 2019,
trial court dismissed petitioner's complaint and denied his motion as frivolous. On
January 13, 2020, petitioner filed notice of appeal. On March 30, 2020, respondent
United States Court of Appeals for the Third Circuit in an order, denied petitioner's
motion for relief, pursuant to Rule 27 (a)(2) of the Federal Rules of Appellate Proedure
when respondent in an order denied petitioner's motion for authorization to file this
appeal.
Respectfully submitted this the 9th of April, 2020.
April 9, 2020

Arthur O. Armstrong, Petitioner

&
REASON FOR GRANTING THE WRIT OF CERTIORARI
Respondent School District of Philadelphia failed to conform to the requirements of the
federal constitution and laws of the United States when respondent, without due process of
law, acted with active connivance in the making of the state law violation false reports and
other conduct amounting to official discrimination clearly sufficient to constitute denial of
rights protected by the Equal Protection Clause to deprive petitioner of his property
without due process of law when respondent on August 25, 1992 discharged petitioner
from his teaching position without due process of law in violation of the Fourteenth
Amendment to the Constitution of the United States.
Respondent acted with reckless indifference and wanton disregards for the truth or falsity
and the rights of petitioner and others when respondent, without just cause/probable
cause, acted with including but not limited to: arbitrariness, capriciousness, malice, fraud,
trickery, deceit, conspiracy, falsity, racial discrimination and discharged the petitioner
without due process of law, in violation of the Fourteenth Amendment to the Constitution
of the United States.
Respondent violated Article B-Vill Grievance Procedure, section 1. A grievance is a complaint
involving the work situation, that there is a lack of policy, that a policy or practice is
improper or unfair; or there has been a deivation from or a misrepresentation or
misapplication of a prictice or policy; or there has been a violation, misinterpretation or
misapplication, inequitable or otherwise improper application of any provision of this
Agreement.
That the United States Court of Appeals for the Fourth Circuit denied petitioner's motion for
relief, pursuant to Rule 27 (a)(2) of the Federal Rules of Appellate Procedure because district
court did not certify that petitioner's appeal would not be frivolous.
The United States Court of Appeals for the Third Circuit entered a judgment on March 30,
2020, in an order denyig authorization to file appeal and an unauthorized

appeal was

dismissed because it violated the filing injunction. Rule 4 of the Federal Rules

of Civil

Procedure; appeal as a right - when taking. Petitioner filed timely notice of appeal in both
circuits.
(a) The United States Court of Appeals for the Third Circuit has entered a decision in conflict
with a decision of another United States Court of Appeals on the same important matter, has
decided an important federal question in a way that conflicts with a decision by a state court
of last resort, or has so far departed from the accepted and usual court judicial prodeeding,
or sanctioned such a departure by the district court, as to call for an exercise of this Court's

7

supervisory power.
^3,'“ Haf

^ H,e^ £ta* te «« - important

relevant decision of this
Was wonS when Respondent discharged

petitioner from his teaching
'’“I " Without d“ Process of Jaw in violation of the
Fourteenth Amendment to the
Constitution of the United States
And for an ordinary
citizen such as the petitioner to have the Supreme Court to
answer such question as to
active connivance in the
conduct amounting to
Protection Clause

™togerjrn!r ™"1 ^ ^ * APPMb acted ««■

to the

sz: ™

=

Appellate Procedure in violation of the to rt 'k”
27,a,(2) 07 the F®deral Rules of
United States would be of n^lTJl^ T Ame"dme"* tD tha Constitution of the
confronted by all minorfty cftiaens of the
about due process of law but all of the citiaens I talk to

^ a

C°nSatati°nal '***'**'
! “ °ne
them' We talk

most states including Pennsylvania rin „ ,
.
P‘V d°n t f‘noB' wtet * is because
something, like civil rights and not fail f
pract,ce *' especially when one stands for
United States wHi hear petitioner, Arthur a Clgfclllri£t
°f «*«

Board of Education and Arthur 0. Armstrong who

United States of which he is one of them.

^

conclusion

The petition for a writ of certiorari should be granted.
Respectfully submitted,
Arthur O. Armstrong, Petitioner

““ P,'ade'Phia

is teaching position
n of
^ ^ m,n'°na °f dtizens of the

